                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                                .I
                                                                                                                 i

 Case Number: 1-10120056                                                                      Page 1 of 1



         This case was initiated when NSF-OIG received multiple identical complaints about potential
         research misconduct (RM) and possible misuse of NSF funds against a university 1 Principal
         Investigator (pIi on an NSF Award3• The grant was for support of laboratory experiments with
         a certain variety ofplant4 •

         The alleged RM suggested that the plants had died and experiments were being conducted on a
         different species of plant. There was also an assertion that data had been fabricated to cover up
         an unsuccessful replication of the laboratory experiment.

         The charges of grant fraud pertained to laboratory activities that were alleged to be outside of the
         scope of the grant, student travel unrelated to the grant and personal expenses that may have
         been charged to the award.

         Based on our request, the university conducted an Inquiry into the RM allegations.              The
         university Inquiry committee determined the RM allegations were unsubstantiated. The inquiry
         committee discovered that lab notebooks were missing and stated it would address this less than
         best practices of post-production data storage as a separate matter. To emphasize the importance
         of addressing this matter, we issued a Questionable Research Practices letter to the university.

         We also requested from the university the general ledger and supporting documentation for all
         expenditures incurred by the NSF award. After reviewing all the documentation, we concluded
         that the allegation of misuse of funds was unsubstantiated.

         Accordingly, this case is closed.




         2


         4




NSF OIG FOlm 2 (11/02)
